              OFFICE OF JUSTICE PROGRAMS
OFFICE OF JUVENILE JUSTICE AND DELINQUENCY PREVENTION
        SERIOUS AND VIOLENT OFFENDER REENTRY
INITIATIVE GRANT AWARDED TO THE NEW YORK STATE OFFICE
            OF CHILDREN AND FAMILY SERVICES

                  ALBANY, NEW YORK

                U.S. Department of Justice
             Office of the Inspector General
                      Audit Division
            Philadelphia Regional Audit Office

               Audit Report GR-70-10-002
                     November 2009
                 OFFICE OF JUSTICE PROGRAMS
   OFFICE OF JUVENILE JUSTICE AND DELINQUENCY PREVENTION
   SERIOUS AND VIOLENT OFFENDER REENTRY INITIATIVE GRANT
          AWARDED TO THE NEW YORK STATE OFFICE OF
                CHILDREN AND FAMILY SERVICES

                                EXECUTIVE SUMMARY

       The U.S. Department of Justice (DOJ) Office of the Inspector General,
Audit Division, has completed an audit of the Office of Juvenile Justice and
Delinquency Prevention (OJJDP), Serious and Violent Offender Reentry
Initiative (SVORI) grant, number 2002-RE-CX-0028, awarded to the New
York State Office of Children and Family Services (OCFS). Between July
2002 and September 2004, OJJDP awarded OCFS a total of $1,237,504
distributed through a grant and two supplements. 1 The purpose of the
SVORI grant program was to develop locally responsive initiatives to
improve the reintegration of incarcerated individuals.

      The objective of our audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grant. We also assessed the OCFS’s program performance
in meeting the grant objectives and overall accomplishments. This audit was
also designed to provide input to an overall assessment of the DOJ Prisoner
Reentry Initiative from 2002 until the present.

      We determined the OCFS did not fully comply with the agreement
requirements we tested. We reviewed the OCFS’s compliance with nine
essential grant conditions and found material weaknesses in six of the nine
areas we tested: (1) grant expenditures, (2) progress reports,
(3) drawdowns, (4) budget management and control, (5) program
performance and accomplishments, and (6) complying with grant specific
reporting. Because of the deficiencies identified, we are questioning
$760,454, or 61 percent of the grant funds. 2

      In performing our fieldwork, we found the OCFS only submitted 2 of
the 10 required semi-annual progress reports over the award period of five

       1
        While OCFS received a grant and two supplements, we will refer to all of the
awards as the grant throughout this report.
       2
        The Inspector General Act of 1978, as amended, contains our reporting
requirements for questioned costs. However, not all findings are dollar-related. See
Appendix II for a breakdown of our dollar-related findings and for definitions of questioned
costs.


                                              2
years, and failed to report specific performance measures required by
OJJDP. Additionally, we found that the OCFS experienced significant delays
and difficulties implementing the program. These delays and difficulties
included the restricted release of grant funds by OJJDP, staff turnover at
OJJDP and the OCFS, and hiring freezes at the OCFS. As a result, the
program was not implemented as originally designed and was not deemed
successful.

     These items are discussed in detail in the findings and
recommendations section of the report. Our audit objectives, scope, and
methodology appear in Appendix I.

      We discussed the results of our audit with OCFS officials and have
included their comments in the report, as applicable. Additionally, we
requested a response to our draft report from the OCFS and OJP, and their
responses are appended to this report as Appendix III and IV, respectively.
Our analysis of both responses, as well as a summary of the actions
necessary to close the recommendations can be found in Appendix V of this
report.




                                     3
